                                             (         NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 1-10010001                                                                     Page 1 of 1



                 We initiated an investigation after receiving information that a Purchase Card issued to an
          NSF employee l may have been used to purchase personal items. However, we found that the
          Purchase Card had been compromised and used by unknown individuals to make personal purchases.
          The NSF employee worked with the credit card company to have the Purchase Card reissued and the
          questionable purchases removed from the NSF account.

                   Accordingly, this case is closed.




         1­
NSF OlG Form 2 (11102)
